HHS/OIG, Audit -"Incurred Cost Audit James Bell Associates, Inc. Substance Abuse and Mental Health Services Administration's Grant SM52395,"(A-03-03-03301)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Incurred Cost Audit James Bell Associates, Inc. Substance Abuse and Mental Health Services Administration's Grant
SM52395," (A-03-03-03301)
May 18, 2004
Complete
Text of Report is available in PDF format (939 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether James Bell Associates, Inc. (JBA) costs claimed
from September 1, 2000 to August 31, 2001 were allowable, allocable, and reasonable under the terms of the grant and applicable
Federal regulations.  We identified $174,724 in questionable costs and $28,547 that we set aside for adjudication
by the Substance Abuse and Mental Health Services Administration (SAMHSA).  We recommended that SAMHSA ensure JBA
develop and implement accounting policies and procedures to ensure adherence to applicable Federal regulations and Public
Health Service Grants Policy requirements; refund to SAMHSA $174,724 in costs that were not allowable; and provide additional
documentation to SAMHSA for $28,547 in costs that were unresolved; or refund to SAMHSA those unresolved costs for which
no additional documentation is available.